     Management Advisory Report




Single Audit of the State of North
Carolina for the Fiscal Year Ended
          June 30, 2011




       A-77-13-00003| February 2013
Single Audit of the State of North Carolina for the Fiscal Year
Ended June 30, 2011
A-77-13-00003
February 2013                                                            Office of Audit Report Summary

Objective                                 Findings

To report internal control weaknesses,    The single audit reported:
noncompliance issues, and
unallowable costs identified in the       •   Internal controls over payment for provider consultative
single audit to the Social Security           examinations (CE) did not effectively ensure the DDS only paid
Administration (SSA) for resolution.          for medically necessary services and that invoices for services
                                              were accurate.
Background
                                          •   The DDS did not have a process in place to verify and
The North Carolina State Auditor              document that all CE providers, including hospitals, were
performed the single audit of the State       eligible to participate in the program.
of North Carolina. SSA is responsible
for resolving single audit findings       •   The DDS did not have a review and approval process to ensure
related to its Disability Insurance           the accuracy of the information reported on the Form SSA-
program. The State Department of              4514, Time Report of Personnel Services for Disability
Health and Human Services is the              Determination Services.
North Carolina Disability
Determination Services’ (DDS) parent      Recommendations
agency.
                                          We recommend that SSA ensure the DDS has:

                                          1. Established procedures to minimize the risk of payments for
                                             unauthorized or unallowable CE services.

                                          2. Established procedures to verify and document all providers of
                                             CE services are eligible to participate in the program.

                                          3. Strengthened procedures to ensure the accuracy of the
                                             information reported on Form SSA-4514.
MEMORANDUM

Date:      February 26, 2013                                                         Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of North Carolina for the Fiscal Year Ended June 30, 2011
           (A-77-13-00003)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of North Carolina for the Fiscal Year ended June 30, 2011. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           The North Carolina State Auditor performed the audit. The results of the desk review conducted
           by the Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the North Carolina State Auditor and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The North Carolina Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The State Department of Health and Human
           Services is the North Carolina DDS’ parent agency.

           The single audit reported:

           •   Internal controls over payment for provider consultative examinations (CE) did not
               effectively ensure the DDS only paid for medically necessary services and invoices for


           1
            Single Audit Report for the Year Ended June 30, 2011. http://www.ncauditor.net/EPSWeb/Reports/Financial/FIN-
           2011-8730.pdf, (last viewed January 16, 2013).
Page 2 - Gary S. Hatcher

       services were accurate. 2 The corrective action plan indicated steps had been added to
       existing internal controls to ensure medical services performed were necessary, and costs
       incurred were for allowable services.

•      The DDS did not have a process in place to verify and document that all CE providers,
       including hospitals, were eligible to participate in the program. 3 The corrective action plan
       indicates procedures were being developed for an annual review of hospitals and radiologists.

•      The DDS did not have a review and approval process to ensure the accuracy of the
       information reported on the Form SSA-4514, Time Report of Personnel Services for
       Disability Determination Services. 4 The corrective action plan indicates that internal controls
       had been strengthened to ensure adequate review and verification of the amounts reported on
       the Form SSA-4514.

We recommend that SSA ensure the DDS has:

1. Established procedures to minimize the risk of payments for unauthorized or unallowable CE
   services.

2. Established procedures to verify and document all providers of CE services are eligible to
   participate in the program.

3. Strengthened procedures to ensure the accuracy of the information reported on Form
   SSA-4514.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                   Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein



2
    Id. at finding 11-SA-134.
3
    Id. at finding 11-SA-135.
4
    Id. at finding 11-SA-136.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
